The Emergency Witness Assistance Program
Return
to the USDOJ/OIG Home Page
The Emergency Witness Assistance Program
Report Number I-2001-002
TABLE OF CONTENTS
MEMORANDUM
EXECUTIVE DIGEST
INTRODUCTION
Program Background
INSPECTION RESULTS
USAOs are Generally Complying with EWAP Requirements
Witnesses May Need Additional Assistance
Conclusion
Recommendation
EOUSA's Administration of the EWAP Should be Strengthened
Conclusion
Recommendations
APPENDIX I      Scope and Methodology
APPENDIX II     Other Witness Assistance Programs
APPENDIX III    USAO Responsibilities for the EWAP
APPENDIX IV    Witnesses Assisted and EWAP Funds Expended
APPENDIX V     EOUSA Responsibilities for the EWAP
APPENDIX VI    EOUSA's Response to the Draft Report
APPENDIX VII   OIG's Analysis of EOUSA's Response